National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001
                                                   March 31, 2008

TO:                 Associate Administrator for Science
                    Director, Goddard Space Flight Center
                    Chief Financial Officer, Goddard Space Flight Center

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on Audit of NASA’s Global Precipitation
                    Measurement Project (Report No. IG-08-016-Redacted; Assignment
                    No. A-07-014-00)


The Office of Inspector General (OIG) conducted an audit of NASA’s Global
Precipitation Measurement (GPM) Project. The GPM Project is a part of NASA’s next
generation of satellite-based missions that will contribute to the U.S. Climate Change
Science Program and the U.S. Weather Research Program. We initiated this audit
because budget reductions in previous years delayed the GPM Project’s original launch
date in 2007 to the current launch date in 2013. In addition, the January 2007 National
Academy of Sciences’ Earth Science and Applications from Space: National Imperatives
for the Next Decade and Beyond (Decadal Survey) 1 emphasized the importance of the
GPM Project and that the viability of GPM will depend on NASA’s commitment to a
firm launch schedule.

The objective of the audit was to determine whether further schedule delays to the GPM
Project would result in significant risks to the Project and whether NASA had taken steps
to mitigate those risks. Specifically, we assessed whether NASA was taking the
appropriate steps to mitigate and plan for potential cost overruns and schedule delays to
the GPM Project. In addition, we evaluated whether NASA was taking steps to ensure
that its international partner, Japan Aerospace Exploration Agency (JAXA), and its
contractor would not abandon the Project. We also reviewed internal controls as
appropriate. See Enclosure 1 for details on the audit scope and methodology.

Executive Summary
We found that NASA was taking steps to mitigate risks of further schedule delays to the
GPM Project. However, funding shortfalls in fiscal years (FYs) 2005 through 2007

1
    The Decadal Survey is the National Research Council’s response to a request from NASA’s Earth Science
    Division, Science Mission Directorate; the National Oceanic and Atmospheric Administration’s National
    Environmental Satellite Data and Information Service; and the U.S. Geological Survey’s Geography
    Division. The Survey was to generate consensus recommendations from Earth and environmental science
    and applications communities regarding (1) high-priority flight missions and activities to support national
    needs for research and monitoring of the dynamic Earth system during the next decade, and (2) important
    directions that should influence planning for the decade beyond.
                                                                                           2




caused delays to the delivery schedule of the Project’s only prime contract, the GPM
Microwave Imager (GMI). Those schedule delays have resulted in increasing GPM
Project costs. Additionally, NASA’s partnership with JAXA could be negatively
impacted if the Project incurs any further delays.

On April 25, 2007, the GPM contracting officer at Goddard Space Flight Center
exercised a launch delay provision and requested that the contractor, Ball Aerospace and
Technologies Corporation (Ball), submit an updated cost proposal for completing the
GMI. Ball’s revised proposal, dated July 24, 2007, stated that NASA’s funding
constraints had disrupted the original performance plan, causing inefficiencies and time
extensions, which Ball projected would result in cost growth of more than 50 percent,
about $— million. To validate the proposal’s reasonableness, the GPM contracting
officer requested that the GPM Project Office perform technical and cost reviews. As of
February 2008, the Project Office had completed the technical review, but not the cost
review.

We believe the funding shortfalls and the ensuing delays have resulted in a dramatic
alteration in planning for GPM Project execution, at substantially increased cost. In April
2005, the Chair of the National Academy of Sciences’ Committee on Earth Science and
Applications from Space: A Community Assessment and Strategy for the Future, warned the
House Science Committee that repeated budget cuts threatened many Earth Science
programs that are being downsized, delayed, or canceled. NASA’s decision to delay
GPM to meet other Agency priorities impacted the Project’s planning and execution.

The Project’s highest ranked risk in July 2007 was securing launch services for the first
satellite for the Project, the GPM Core, which will carry the primary precipitation
measurement instruments. One of JAXA’s roles in the GPM partnership was to provide
the launch vehicle for the first satellite; therefore, NASA had not budgeted for a launch
vehicle. Because of the GPM Project schedule delays, the planned JAXA launch vehicle
was no longer available.

During the course of our audit, it became evident that a successor launch vehicle had not
been made available to the GPM Project. As a result, we made several inquiries of
various Headquarters officials as to how NASA planned to resolve this matter with
JAXA. Subsequently, the Exploration Systems Mission Directorate, the Science Mission
Directorate, the Space Operations Mission Directorate, and the Office of External
Relations completed and signed an internal Memorandum of Agreement designating a
launch vehicle for the first satellite. The designated launch vehicle is from a previously
unrelated barter agreement with JAXA connected with the International Space Station
(ISS).

In January 2008, NASA and JAXA completed an agreement that provides an H-IIA
launch vehicle for the GPM Core. An Implementation Memorandum of Understanding
still needed to be completed to specify the launch arrangements. The launch date and
arrangements continue to be an area of risk.
                                                                                             3




Our March 7, 2008, draft of this memorandum recommended that the Goddard Chief
Financial Officer, in accordance with Goddard Procedural Requirements (GPR) 5100.5A,
“Government Cost Estimates for Acquisitions Exceeding the Micro-Purchase Threshold,”
April 28, 2005, either conduct an independent assessment of the cost estimate or request a
third-party review to validate the estimate.

Management’s comments on the draft of this memorandum are responsive (see
Enclosure 2). We consider the recommendation resolved and will close the
recommendation upon completion and verification of management’s action.

Background
NASA and JAXA originally conceived the GPM Project in 2001 as a joint mission to
build and expand on the continuing and successful Tropical Rainfall Measuring Mission
(TRMM), which monitors and records primarily tropical rainfall. GPM is designed to
provide greater capability than TRMM of measuring global precipitation. GPM is
expected to provide research scientists the data required to better understand the Earth’s
water and energy cycle, which should improve climate and weather predictions.

The GPM Project consists of two primary satellites: the Core spacecraft and the
Constellation spacecraft. The Core spacecraft, the Constellation spacecraft, and other
satellites provided by domestic and international partners will provide data to the NASA
Precipitation Processing System (PPS). The Core spacecraft, which NASA will
assemble, will carry two primary measurement instruments: the Dual-Frequency
Precipitation Radar (DPR) and the GMI. JAXA will provide the DPR, and NASA will
provide two GMI instruments (one each for the Core and Constellation spacecraft). The
Core spacecraft will also serve as a calibration standard for all of the operational satellites
providing data to GPM. The use of a constellation of satellites is designed to enable
enhanced data collection and cross-calibration by the PPS.

Under the GPM partnership, JAXA was to provide the Core launch vehicle and services.
NASA was to provide instrument integration and ground data collection and processing.
NASA and JAXA jointly study the possible contributions of future U.S. and Japanese
satellites to GPM. The Constellation spacecraft, which NASA will launch, is one such
satellite.

Significant GPM Project Risks
The GPM Project Office had a risk management process that identified, analyzed,
tracked, and communicated risks in accordance with NASA Procedural Requirements
(NPR) 8000.4, “Risk Management Procedural Requirements,” April 25, 2002. The GPM
Project used the risk data to categorize and communicate high-risk areas to NASA
management in monthly Project Status Reviews. We focused our audit on two risk areas
included in the GPM Project Status Reviews and risk reports that we assessed may result
                                                                                                           4




in significant changes to the GPM Project if further delays occur: (1) the prime contract
cost growth and (2) the GPM Core launch. NASA was taking steps to identify and
mitigate these risks.

Cost Growth of Core’s GMI Contract. The GPM Project budget reductions in
FYs 2005 through 2007 led to a 2-year delay in the Project’s only ongoing prime
contract, the development and delivery of the Core’s GMI. The Core spacecraft was
originally planned to be launched in 2007. Because of budget reductions, the Core
launch is now planned for June 2013. In FYs 2005 through 2007, NASA reduced the
GPM Project budget to accomplish other goals articulated in the President’s Vision for
Space Exploration. 2

NASA’s decision to delay GPM to meet other Agency priorities impacted the Project’s
planning and execution. In FY 2005, NASA redirected money into implementing the
President’s Vision, which resulted in funding cuts to NASA’s Earth Science programs.
These funding cuts raised concerns in the Earth Science community. In April 2005, the
Chair of the National Academy of Sciences’ Committee on Earth Science and Applications
from Space: A Community Assessment and Strategy for the Future, warned the House
Science Committee that repeated budget cuts threatened many Earth Science programs
that are being downsized, delayed, or canceled. 3 This concern was also reflected in the
National Research Council’s April 2005 interim Decadal Survey report on Earth Science
priorities and direction. The interim report recommended that the GPM Project should be
launched without further delay. We believe the funding shortfalls and the ensuing delays
have resulted in a dramatic alteration in planning for GPM Project execution, at
substantially increased cost.

In January 2007, the National Research Council released the final report on its Decadal
Survey, which emphasized the importance of the GPM Project and states that the viability
of GPM will depend on NASA’s commitment to a firm launch schedule. The Decadal
Survey includes concerns over launch delays attributed to budget reductions in prior
years. Consequently, NASA’s Administrator requested additional funding for the GPM
Project in the FY 2008 budget in order to keep the mission on schedule. 4




2
    On January 14, 2004, President Bush announced “A Renewed Spirit of Discovery: The President’s Vision
    for U.S. Space Exploration” (available online as of February 13, 2008, at
    http://www.whitehouse.gov/space/renewed spirit.pdf).
3
    The Chair’s testimony is available online at http://gop.science.house.gov/hearings/full05/apr28/Moore.pdf
    (accessed February 13, 2008).
4
    Statement of Michael D. Griffin before the Committee on Science and Technology, U.S. House of
    Representatives, March 15, 2007 (available online as of February 13, 2008, at
    http://legislative.nasa.gov/hearings/3-15-07%20Griffin%20HSTC.pdf).
                                                                                                             5




The following table shows the changes to the Core launch readiness dates in relation to
budget reductions.

                                    GPM Budget and Launch Dates
                                                     Budget
                                                (dollars in millions)
         Program               FY 2004 President’s              Final Approved         Estimated Core
    Operating Plan Year        Budget Submission                  FY Funding            Launch Date
           FY 2005                     $ 44.2                           $29.1          June 2010
           FY 2006                     $ 99.3                           $24.7          December 2012
           FY 2007                     $155.9                           $28.8          June 2013
           FY 2008                     $143.8                           $89.7          June 2013


The budget reductions lengthened the Project’s formulation phase, 5 which resulted in
cost growth. When NASA initiated the GPM Project in 2001, the cost estimate for
NASA’s contribution to the mission was approximately $600 million. As of January
2008, NASA’s contribution to GPM was estimated at approximately $1 billion. NASA
had budgeted approximately $196 million for the GPM Project through FY 2008.

In March 2005, Goddard awarded a competitively solicited contract to Ball to build the
Core GMI instrument and deliver it in 2009 in order to meet the planned GPM Core
launch date of June 2010. At that time, the overall GPM budget provided sufficient
funding to initiate and complete the contract. However, in the following fiscal years,
GPM Project funding was reduced by NASA to accomplish the goals articulated in the
President’s Vision, which resulted in a delay of the Core’s launch date to June 2013. As
a result, NASA delayed the planned GMI delivery date until April 2011, to meet the June
2013 Core launch date. Due to these delays, the GPM contracting officer at Goddard
exercised a launch delay provision and requested that the contractor submit a new cost
proposal. 6

Ball’s new cost proposal, dated July 24, 2007, showed a $— million cost increase ——
————————————————— of more than 50 percent. Ball attributed
approximately $— million of the $— million increase primarily to additional labor
costs resulting from the launch delays. ————————————————————
————————————————————————————————————
———————————————————————————————

5
    The primary activities in this phase include developing and defining the project requirements and
    cost/schedule basis and designing a plan for implementation (including an acquisition strategy, contractor
    selection, and long-lead procurement).
6
    The GMI contract provides a launch delay clause if NASA directs delays to the launch schedule. The
    contracting officer may inform the contractor of the revised delivery date and allow the contactor to
    submit a new proposal.
                                                                                                               6




————————————————————————————————————
————————————————————————————————————
————————————————————————————————————
————————————————————————————————————
——————————————————————————————— Ball stated
that the cost growth was due to NASA’s funding constraints, which disrupted the original
performance plan and caused work performance inefficiencies and time extensions for
Ball and its subcontractor. We did not evaluate the proposal’s cost growth or the
— increase in labor hours. The results of the GPM Project Office’s ongoing cost
review will serve to validate the proposal’s reasonableness.

The GPM Project could benefit from an independent assessment of the new proposal and
could protect NASA from unnecessary costs. To validate the proposal’s reasonableness,
the GPM contracting officer requested that the GPM Project Office perform technical and
cost reviews of the July 2007 proposal. As of February 2008, the Project Office had
completed the technical review; the cost review, which required a completed technical
review, was still in progress. GPR 5100.5A states that the Goddard Chief Financial
Officer has the responsibility to consider whether to make or direct independent reviews
to validate a project office’s cost estimate. An independent assessment of the cost
estimate would provide additional validation of the proposal’s reasonableness. 7

Risks Associated with the GPM Core Launch. The GPM Project’s highest ranked risk
in July 2007 was the lack of a launch vehicle agreement or commitment for the GPM
Core launch. As part of the initial partnership arrangement, JAXA was to provide a
launch vehicle. JAXA had intended to include the Core on an H-IIA rocket launch with
another JAXA satellite. 8 Because of this arrangement, NASA did not budget for a Core
launch vehicle. However, NASA’s budget shortfalls in the GPM Project resulted in
schedule delays totaling 6 years as of January 2008, and NASA lost the opportunity to
include the Core on that H-IIA rocket launch.

In a February 2006 letter, JAXA suggested that NASA consider using the launch services
of an unrelated JAXA H-IIA rocket that had previously been promised to NASA as part
of the ISS barter agreement. 9 In addition, JAXA expressed surprise and disappointment
over NASA’s announcement of a 2½-year delay to launch GPM Core, which slipped to
December 2012. In a January 2007 letter, JAXA noted that NASA had delayed the



7
    According to the Government Accountability Office’s “Cost Assessment Guide: Best Practices for
    Estimating and Managing Program Costs” (GAO-07-1134SP, July 2007), an independent cost review is
    one of the best and most reliable validation methods to test a project office’s estimate for reasonableness.
8
    JAXA had originally anticipated launching GPM Core with the Greenhouse Gases Observing Satellite;
    that launch is currently planned for August 2008.
9
    The NASA/JAXA barter agreement, executed in September 1997, contains a provision for NASA to
    provide Shuttle launches to transport and assemble JAXA ISS assets in exchange for JAXA providing
    other ISS equipment and the future launch services of an H-IIA rocket for a NASA payload.
                                                                                         7




launch to June 2013, and stated that further delays beyond the June 2013 launch date
would cause JAXA to lose its interest in the GPM partnership.

NASA confirmed its commitment to the current launch date of June 2013 in an August
2007 letter to JAXA. The letter from NASA’s Associate Administrator for the Science
Mission Directorate reaffirmed the importance of the GPM partnership in providing vital
global precipitation measurements as described in the Decadal Survey. The letter did not
discuss the Core launch issue.

During August 2007, we found that the issue of the launch vehicle had not been resolved
and that no action had taken place to obtain the launch services of the H-IIA rocket from
the ISS barter agreement. We made several inquiries of various Headquarters officials as
to how NASA planned to address the GPM Core launch requirement. On September 10,
2007, the Exploration Systems Mission Directorate, the Science Mission Directorate, the
Space Operations Mission Directorate, and the Office of External Relations completed
and signed an internal Memorandum of Agreement that makes available to the GPM
Project an H-IIA rocket launch derived from the JAXA-promised launch services
included in the ISS barter agreement. In January 2008, NASA and JAXA completed an
agreement that provides for an H-IIA rocket for the GPM Core launch. NASA and
JAXA still needed to complete an Implementation Memorandum of Understanding to
specify the launch arrangements.

Although these agreements lessen the risks associated with identifying the Core launch
vehicle, the launch date continues to be an area of risk. Any further schedule delays
beyond June 2013 caused by NASA could result in JAXA discontinuing its support of the
GPM Project.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response
   We recommended that the Goddard Chief Financial Officer, in accordance with
   GPR 5100.5A, either conduct an independent assessment of the cost estimate or
   request a third-party review to validate the estimate.

   Management’s Response. The Associate Administrator for Science concurred,
   stating that the Goddard Chief Financial Officer’s Program Analysis Office will
   perform an independent assessment of the contractor’s revised cost estimate for the
   Core GMI instrument. The projected completion date is June 30, 2008.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s action.
                                                                                        8




This version of the memorandum was revised to omit privileged/proprietary commercial
and financial information that is exempt from public release under the Freedom of
Information Act (Exemption 4).

We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Mr. Raymond Tolomeo, Science and
Aeronautics Research Director, at 202-358-7227 or Mr. Michael Niedringhaus at
202-358-5158.


   signed
Evelyn R. Klemstine

2 Enclosures

cc:
Associate Administrator for Exploration Systems
Associate Administrator for Space Operations
Assistant Administrator, External Relations
                              Scope and Methodology
We performed this audit from July 2007 through February 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our conclusions and in line with the audit objectives. We believe that, based on
our objectives, the evidence obtained provides a reasonable basis for our conclusions.

We performed this audit at NASA Headquarters and Goddard. We reviewed
NPR 8000.4, NPR 7120.5D, and GPR 5100.5A. We held meetings with GPM Project
Office personnel and NASA officials involved with the Project and reviewed the monthly
and quarterly status review presentations to gain an understanding of the Project’s
operation and management structure. In addition, we reviewed the Memorandum of
Understanding between NASA and JAXA, “Cooperation of Formulation Activity of the
Global Precipitation Measurement Program,” June 27, 2005, which defines each party’s
roles and responsibilities for formulating the GPM Project.

To determine whether the GPM Project Office had procedures and processes in place that
effectively identified and mitigated risks of further schedule delays and cost increases, we
compared the Project’s risk management process with NPR 8000.4 requirements. We
also reconciled the identified highest risks for the GPM Project, using the monthly
Project Status Reviews (July–December 2007), the August 2007 quarterly Project status
presentations, and the Program Operating Plans for FYs 2003–2007.

We met with officials from the Headquarters Office of External Relations and the Space
Operations Mission Directorate to discuss planned negotiations involving GPM and the
JAXA-provided launch vehicle. We also interviewed GPM Project management and the
GPM contracting officer concerning their processes for review and oversight of the July
2007 cost proposal that NASA requested from Ball and concerning future monitoring
efforts over the contract costs and performance. We reviewed the contract files for the
GMI effort, including the pre-award files.

Computer-Processed Data. We did not use computer-processed data to perform this
audit.

Review of Internal Controls. We determined that the GPM Project Office risk
management process met NPR 8000.4 requirements, and we did not identify any internal
control weaknesses.

Prior Coverage. During the last 5 years, the NASA OIG has issued one report of
particular relevance to the GPM Project: “NASA Can Improve Its Mitigation of Risks
Associated with International Agreements with Japan for Science Projects” (IG-06-020,
September 12, 2006). Unrestricted reports can be accessed over the Internet at
http://oig.nasa.gov/audits/reports/FY08/index.html.


                                                                                     Enclosure 1
                                                                                     Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
